         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Special Report
The Department of Energy's Quality
Assurance Process for Prime Recipients'
Reporting for the American Recovery and
Reinvestment Act of 2009




OAS-RA-10-01                           October 2009
                                     Department of Energy
                                     Washington, DC 20585

                                        October 21, 2009


MEMORANDUM FOR THE CHIEF FINANCIAL OFFICER


FROM:                     Rickey R. Hass
                          Deputy Inspector General for Audit Services
                          Office of Inspector General

SUBJECT:                  INFORMATION: Interim Special Report on Review of "The
                          Department of Energy's Quality Assurance Process for Prime
                          Recipients' Reporting for the American Recovery and Reinvestment Act"


INTRODUCTION AND OBJECTIVE

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was established to
jumpstart the U.S. economy, create or save millions of jobs, spur technological advances in health
and science, and invest in the Nation's energy future. The Department of Energy (Department)
will receive an unprecedented $37 billion in Recovery Act funding to support a variety of science,
energy, and environmental initiatives. The majority of the funding received by the Department
will be allocated to various recipients through grants, cooperative agreements, contracts, and other
financial instruments.

To ensure transparency and accountability, the Office of Management and Budget (OMB)
requires that recipients report on their receipt and use of Recovery Act funds on a quarterly basis
to FederalReporting.gov. OMB also specifies that Federal agencies should develop and
implement formal procedures to help ensure the quality of recipient reported information. Data
that must be reported by recipients includes total funding received; funds expended or obligated;
projects or activities for which funds were obligated or expended; and the number of jobs created
and/or retained. OMB requires that Federal agencies perform limited data quality reviews of
recipient data to identify material omissions and/or significant reporting errors and notify the
recipients of the need to make appropriate and timely changes to erroneous reports.

As part of a larger audit of recipient Recovery Act reporting and performance measurement and
in support of a Government-wide review sponsored by the Recovery Accountability and
Transparency Board, we completed an interim review to determine whether the Department had
established a process to ensure the quality and accuracy of recipient reports.

CONCLUSION AND OBSERVATIONS

Our review revealed that the Department had developed a quality assurance process to facilitate
the quarterly reviews of recipient data. The process included procedures to compare existing
information from the Department's financial information systems with that reported to
FederalReporting.gov by recipients. In addition, plans were in place to notify recipients of
anomalies and/or errors exposed by the quality assurance process. While the Department has
made a good deal of progress in this area, we did, however, identify several issues which could,
if not addressed, impact the effectiveness of the quality assurance process.

                                   Quality Assurance Process

The Department had developed a strategy to address its oversight responsibilities for ensuring
the accuracy and completeness of data reported by Recovery Act recipients. Specifically, our
review disclosed that:

   •   The Department's Process to Conduct Data Quality Review of Recipient Reporting
       Required by Section 1512 of the American Recovery and Reinvestment Act of 2009 was
       finalized on September 30, 2009. This plan was developed to address the Department's
       responsibilities for conducting reviews of recipient data as outlined in OMB M-09-21,
       Implementing Guidance for the Reports on Use of Funds Pursuant to the American
       Recovery and Reinvestment Act of 2009.

   •   The quality assurance plan outlined the Department's approach to ensuring that all prime
       recipients had filed quarterly reports required by the Recovery Act. Specifically, the plan
       outlines the procedures to be followed by the Office of Chief Financial Officer (OCFO)
       officials, as well as Site Office officials, to regularly review FederalReporting.gov
       registration data to determine whether all awardees were properly registered. After
       recipients are registered, the plan requires that OCFO and Site Office officials
       periodically check that recipients have reported required information, including the
       correct award number.

   •   The Department's review methodology included several phases and provided details on
       the roles and responsibilities for OCFO, Program Office, and Site Office officials. Its
       plan included timelines and milestone dates to which officials are required to adhere.
       Based on discussions with Department officials, we completed a conceptual walk-
       through of the quality assurance process and received clarification on many of its aspects.
       For example, officials informed us that the eight day period for the review of recipient
       data by the Department is critical since the information will be published to the public the
       day immediately following the review period. Therefore, Department officials told us
       that they must work quickly and efficiently to complete their reviews of recipient data.

   •   Department officials informed us that their quality assurance plan was designed to
       emphasize the avoidance of material omissions and significant reporting errors. For
       instance, the plan outlined a qualitative comparison of recipient data obtained from
       FederalReporting.gov to agency data obtained from the Department's financial and
       procurement systems. Specifically, the Department plans to compare four of the data
       elements reported by the recipients to existing Department information, including the
       total value of awards, total value of costs or payments, total number of jobs, and project
       status. To aid in the comparison, the Department established threshold deviations that
       were based on professional judgment and may be adjusted as the Department begins
       receiving recipient data. For example, the Department plans to allow variations of less
                                                2
       than 20 percent between what recipients report as the total value of awards to what the
       Department's systems report as the correct value. Although the quality assurance plan
       established the Department's threshold deviations for the qualitative assessments, we did
       not test the implementation of such thresholds. Furthermore, the Department was unable
       to test the effectiveness of the thresholds because data was not made available in advance
       of the first quarterly reporting period. Once the comparative analysis is completed, the
       officials from the OCFO will send anomaly reports of the threshold deviations to
       cognizant Site Offices. The Site Offices will, in turn, prioritize corrective activities based
       on the awards with the largest dollar values. Site Offices will be responsible for working
       with recipients to address any erroneous or incorrect data.

                            Remaining Quality Assurance Challenges

Although development of the Department's quality assurance process was a significant positive
step, several challenges remain that require resolution to help increase the likelihood that
Recovery Act reporting objectives are met. In particular:

   •   OMB requirements are periodically changing and uncertainty exists regarding the quality
       and timeliness of recipient reporting; therefore, the Department may need to adjust its
       quality assurance plan. For example, Department officials informed us that certain
       recipients, such as State Energy Program awardees, may, for various reasons, be unable
       to report on jobs. As a result, the Department would not be able to conduct a qualitative
       assessment of that particular data element. Department officials acknowledged that the
       quality assurance plan will continue to evolve and recognized this as a challenge going
       forward.

   •   Although officials told us that they believed their plan was adequate for addressing
       systemic or chronic reporting problems, there were several issues of concern related to
       the process. For instance, the Department had not established a coordinated approach for
       remediating reporting problems. While OCFO officials informed us that systemic and
       chronic problems would be addressed as they occur, program-level officials told us that
       they were not always aware of their roles in the remediation process. Program officials
       also indicated that they were unsure of what actions or steps could be taken against
       recipients that experience systemic or chronic reporting problems. In addition, the
       Department had not determined what types of reporting problems should be considered
       systemic or chronic, and had not identified organizational level definitions.

   •   Department officials recognized that recipient reporting and related data quality reviews
       conducted in accordance with OMB M-09-21 could be used for management purposes.
       For example, data could possibly be used to assess recipient risk, identify non-
       compliance with terms of award agreements, and determine when or whether to release
       remaining funding. However, officials had not developed a coordinated plan for such
       action. Although Department officials stated that they planned to develop an approach
       for using the data as a management tool, they noted that it was not currently a priority.




                                                 3
Addressing these issues should enhance the Department's ability to ensure that its responsibilities
under the Recovery Act are met. An effective quality assurance review process related to
recipient data would provide the Department, OMB, and the public with the confidence needed
to accurately gauge the progress in achieving Recovery Act goals.

RECOMMENDED ACTIONS

To aid in the Department's efforts in implementing an effective quality assurance process, we
recommend that the Chief Financial Officer work with cognizant program officials to:

   1. Periodically review the quality assurance process and revise the plan, including adjusting
      thresholds for comparisons, as necessary;

   2. Develop a Department-wide, coordinated approach for addressing systemic and chronic
      recipient reporting problems; and,

   3. Develop a strategy to utilize recipient data to assess compliance with award agreements
      and contracts, assessing recipient risk, and determining future funding.

MANAGEMENT COMMENTS

Management concurred with each of the report's recommendations and indicated that it would
develop corrective action plans to detail how it planned to address the recommendations.

AUDITOR RESPONSE

Management's comments were responsive to our recommendations.

Attachment

cc: Chief of Staff
    Director, Office of Risk Management, CF-1.2
    Team Leader, Audit Liaison, CF-1.2
    Dianne Williams, Office of Risk Management, CF-1.2




                                                4
                                                                                     Attachment

SCOPE AND METHODOLOGY

The review was performed between September and October 2009 at Department of Energy
(Department) Headquarters in Washington, DC and Germantown, Maryland. We utilized the
Recovery Act Reporting Data Quality Review Guide for the Inspector General Community
provided by the Recovery Accountability and Transparency Board to accomplish our objective.

Specifically, we:

   •   Obtained and reviewed the Department's policy and procedures for reviewing quarterly
       Recovery Act data pursuant to Office of Management and Budget Memorandum 9-21;

   •   Determined how the Department planned to ensure that all prime recipients had filed the
       required Recovery Act quarterly reports and conducted the required reviews of the
       reported data;

   •   Conducted a walk-through of the Department's process to perform limited data quality
       reviews;

   •   Determined whether the Department's policy and procedures had been designed to
       emphasize the avoidance of two key data problems: material omissions and significant
       reporting errors;

   •   Determined whether the Department had an adequate process in place to remediate
       systemic or chronic reporting problems; and,

   •   Determined whether the Department anticipated that it will be able to use the reported
       information as a tool for assessing compliance with the terms and conditions of award
       agreements, assessing risk, and determining when to release remaining funds.


We discussed the report with officials from Office of the Chief Financial Officer on October 13,
2009.




                                                5
                                                          IG Report No. OAS-RA-10-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                         Date

Telephone                                    Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

       If you wish to discuss this report or your comments with a staff member of the
       Office of Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
